Jillian Schumacher
6363 Woodway Drive, Suite 700
Houston, TX 77057
(713) 917-0024 Office
(713) 917-0026 Fax
jillian.schumacher@dtlawyers.com

November 17, 2020
The Honorable Scott Harris
Clerk, States Supreme Court of the United States
One First Street, N.E.
Washington, D.C., 20543
Re:

No. 20-651; Cook Children’s Medical Center v. T.L., a Minor, and Mother,
T.L., on her behalf; In the Supreme Court of the United States

Dear Mr.Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
10, 2020, and placed on the docket on November 13, 2020. The response to the
petition for writ of certiorari is currently due on December 14, 2020. Respondents
respectfully request, under Rule 30.4 of the Rules of this Court, an extension of seven
days to file their brief in opposition.

This short extension is necessary because Petitioner surprised Respondents by filing
its writ for certiorari well before the 90-day deadline, and shortly after Respondents
agreed to a request by Petitioner for an extension of time to file a motion for

November 17, 2020
Page 2
reconsideration of the Supreme Court of Texas’s decision to deny review in the abovecaptioned case.

Counsel has been, among other matters, preparing (1) to meet

briefing and exhibit deadlines, on November 25, 2020 and December 10, 2020, in a
confidential multimillion dollar arbitration between a company and its insurer, (2) a
Petition for Review in the Supreme Court of Texas in Ex Parte Steven Garcia, No. 0519-00964-CV due December 11, 2020, and (3) an amicus brief, to be filed in the
Supreme Court of Texas in December 2020, in a case in which the court is hearing
oral argument. Counsel is in the process of seeking extensions of some of these
deadlines.

Counsel for Petitioner does not object to the requested extension of time.

Respectfully submitted,
____________________________
Jillian Lee Schumacher
Counsel of Record
John F. Luman, III
Daniels & Tredennick PLLC
Emily Cook
The Law Office of Emily Cook
Kassi Dee Patrick Marks
The Law Office of Kassi Dee Patrick Marks
Attorneys for Respondents

November 17, 2020
Page 3
Certificate of Service
I certify that I served a copy of this request for extension via electronic mail on the
following counsel for Petitioners on the 17th day of November, 2020:
STEVEN H. STODGHILL
THOMAS M. MELSHEIMER
GEOFFREY S. HARPER
JOHN MICHAEL GADDIS
WINSTON & STRAWN LLP
2121 N. Pearl St., Ste. 900
Dallas, TX 75201
sstodghill@winston.com
tmelsheimer@winston.com
gharper@winston.com
mgaddis@winston.com

DANIEL L. GEYSER
Counsel of Record
ALEXANDER DUBOSE &
JEFFERSON LLP
Walnut Glen Tower
8144 Walnut Hill Lane, Ste. 1000
Dallas, TX 75231
(214) 396-0441
dgeyser@adjtlaw.com

KEN PAXTON
KYLE D. HAWKINS
BILL DAVIS
OFFICE OF THE ATTORNEY GENERAL OF TEXAS
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700
ken. paxton@oag.texas.gov
kyle.hawkins@oag.texas.gov
bill.davis@oag.texas.gov

WALLACE B. JEFFERSON
AMY WARR
NICHOLAS BACARISSE
ALEXANDER DUBOSE &
JEFFERSON LLP
515 Congress Ave., Ste. 2350
Austin, TX 78701
wjefferson@adjtlaw.com
awarr@adjtlaw.com
nbacarisse@adjtlaw.com

Counsel for Petitioners

____________________________
Jillian Lee Schumacher

